No.
INTHE

~uprtmt Court of tbt W:nittb ~tatt~
BARBARA TULLY ET AL.,

Petitioners,

v.
PAUL OKESON, S. ANTHONY LONG, SUZANNAH WILSON
OVERHOLT, ZACHARY E. KLUTZ, AND CONNIE LAWSON,

Respondents.

On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
8,330 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 5, 2021.

Colin CaseytJ.rogan
Wilson-Epes Printing Co., Inc.

